Pension Benefit Guaranty Corporation
     Office of Inspector General
         Evaluation Report




         Evaluation of PBGC’s
      Accounts Payable Process




             June 3, 2005
                                   2005-15/23189
                      Pension Benefit Guaranty Corporation
                                                     Office of Inspector General
                                      1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                                 June 3, 2005

To:            James C. Gerber
               Chief Financial Officer

From:          Luther Atkins
               Assistant Inspector General for Audits

Subject:       Evaluation of PBGC's Accounts Payable Process

       The Office of Inspector General (OIG) has completed an evaluation of the
Pension Benefit Guaranty Corporation (PBGC) accounts payable process. The purpose
of OIG’s evaluation was to identify the controls in-place for vendor payments, and to
evaluate the effectiveness of the controls in limiting the risks related to fraud, waste, or
abuse.

        OIG concluded that PBGC has established solid controls to reduce or mitigate the
risks associated with the accounts payable process. Our review did not uncover any cases
of fraud, waste, or abuse. However, in the report we identified observations that PBGC
should consider when designing and implementing the new performance accounting
system.

        OIG did not make any recommendations in this report and PBGC management
did not provide written comments to the draft report.

       We would like to thank staff in the Controller Operation’s Division and the
General Accounting Branch for their cooperation and efforts during this evaluation. If
you have any questions, concerns, or need additional information please do not hesitate to
contact me on ext. 3928 or Della Whorton on ext. 3661.



cc:     Theodore J. Winter, Jr.
        Wayne McKinnon
        Tasha Solomon
        Walt Luiza
        Ellis Tash
                      EVALUATION OF PBGC’S ACCOUNTS PAYABLE PROCESS


                                               REPORT 2005-15/23189


                                                 TABLE OF CONTENTS



INTRODUCTION .....................................................................................................................1

RESULTS IN BRIEF .................................................................................................................1

OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................................1

OVERVIEW OF ACCOUNTS PAYABLE PROCESS ......................................................................2

OIG OBSERVATIONS .............................................................................................................3

          DOCUMENTATION OF A/P PROCESS ..........................................................................3

          PAYMENT CERTIFICATION PROCESS EFFICIENCY ......................................................3

          OTHER MATTERS ......................................................................................................4

                     TIME/DATE STAMP MACHINE .......................................................................4

                     TIMELY UPDATED COTR LIST .....................................................................4


                                                     ABBREVIATIONS


A/P                  Accounts Payable
COTR                 Contracting Officer Technical Representative
GAB                  General Accounting Branch
ITS                  Invoice Tracking System
OIG                  Office of Inspector General
PBGC                 Pension Benefit Guaranty Corporation
PA                   Performance Accounting
PENSION BENEFIT GUARANTY CORPORATION                             OFFICE OF INSPECTOR GENERAL


INTRODUCTION

      The Office of Inspector General conducted an evaluation of the Pension Benefit
Guaranty Corporation (PBGC) Accounts Payable process to:

       •   Identify the controls associated with making vendor payments, and
       •   Evaluate the effectiveness of the controls in limiting the risks related to fraud,
           waste, or abuse.

       As part of its financial systems integration project, PBGC is replacing the existing
performance accounting (PA) system that supports the accounts payable (A/P) process.
We believe this review will assist management in the development of the new system.

RESULTS IN BRIEF

        Based on our review and analysis of the A/P process, OIG determined that PBGC
has established controls to reduce or mitigate the risks associated with fraud, waste, or
abuse. As such, OIG’s review did not uncover any cases of fraud, waste, or abuse.
However, we identified observations that PBGC should consider when designing and
implementing the new performance accounting system. Overall OIG found that the:

   •   A/P process has inadequate and obsolete procedures that lacked full
       documentation.
   •   documented procedures to either identify the A/P process or identify the person
       that is responsible for performing the process was inadequate, missing, or
       obsolete.
   •   Documentation for the data dictionary used to identify the types and use of data
       for the A/P process was either incomplete or unavailable.
   •   Documentation for the A/P process did not lead to a clear and consistent audit
       trail.
   •   Procedures needed to complete the payment process should be revised.
   •   Steps involved in the payment certification process appear to be cumbersome.
   •   Time/date stamp machine’s control key was continually left in the machine.
   •   Newly appointed contracting officer technical representatives (COTR) authorized
       invoice payments late because the General Accounting Branch (GAB) did not
       keep the COTR list current.

        Once brought to their attention, management immediately corrected the problems
with the time/date stamp machine and newly appointed COTR’s. OIG believes that
clearly defined A/P procedures that promote accountability are crucial for effective
disbursement controls. Therefore, PBGC should review the observations OIG has
outlined concerning documentation and revision to the payment process procedures, to
ensure they are addressed before implementing the new PA system.




                                             1                                     2005-15/23189
PENSION BENEFIT GUARANTY CORPORATION                                      OFFICE OF INSPECTOR GENERAL


OBJECTIVE, SCOPE, AND METHODOLOGY

        OIG’s objective was to identify whether the controls for vendor payments operate
as intended for the A/P process, thereby reducing or mitigating the risk of erroneous
payments, fraud, waste, or abuse.

       We conducted our evaluation in accordance with the Quality Standards for
Inspections1, at PBGC headquarters from August 2004 through March 2005. Our work
was designed to meet our evaluation objective and consisted of the following:

        •    Analyzed vendor payments for goods and services covering FY 2002 through
             FY 2004.
        •    Statistically sampled 4,360 transactions totaling $150 million;
        •    Conducted interviews with: GAB managers and staff, a limited selection of
             COTRs, PBGC Procurement Department managers and staff.
        •    Conducted a walkthrough of the A/P Process.
        •    Reviewed documentation such as PBGC directives, procedures, and policies.
        •    Selected and physically reviewed a random statistical sample of paid invoices
             for supporting documentation and appropriate authorizations.

OVERVIEW OF ACCOUNTS PAYABLE PROCESS

        OIG determined that PBGC has controls in-place for the A/P process. OIG
reviewed the A/P process and our review did not unveil any instances of fraud, waste, or
abuse. However, we found that the COTR did not have a standardized method to inform
GAB on how to allocate payments among the different suffix codes. The A/P procedures
are as follows:

        •    Vendor goods and services invoices are sent to GAB where they are copied,
             date/time stamped, and entered into the Invoice Tracking System (ITS).
        •    The original invoice is then filed and an invoice package is created and sent to
             the COTR for review and payment authorization.
        •    After reviewing the invoice package to determine if the vendor’s submission
             is complete and correct, the COTR notes the amount to be paid, then signs and
             returns the invoice package to GAB.
        •    If the COTR determines the invoice package is not correct, the invoice is
             simultaneously returned to the vendor with a correction request and to GAB
             with an explanation for non-payment.
        •    The COTR allocates invoice amounts to suffix codes, sub-categories of
             obligations used as a supplemental code by departments to track their costs.
        •    When GAB receives the invoice package from the COTR the:
             o receipt date is entered into ITS and the COTR’s signature is verified.
             o original invoice is date and time-stamped again.
             o invoice is forwarded within GAB for entry into the PA system.

1
 The Quality Standards for Inspections issued January 2005 by the President’s Council on Integrity and
Efficiency Executive Council on Integrity and Efficiency

                                                    2                                        2005-15/23189
PENSION BENEFIT GUARANTY CORPORATION                           OFFICE OF INSPECTOR GENERAL


           o invoice is certified by verifying the vendor and amount to be paid and
             another review is conducted
           o authorization releasing payment from the Department of Treasury is made
             and confirmed

       Approximately once a week GAB prints a report of all outstanding invoices and
sends a reminder to the COTR via the ITS. In addition, about once a month GAB sends
COTR’s a copy of the “Obligation Balance Report” and requests they reconcile the
balances per the obligation recorded in the PA system, against what was recorded in their
tracking system. GAB management is responsible for resolving any differences.

OBSERVATIONS

        Based on our review and analysis of the A/P process OIG determined that PBGC
has established solid controls that are effective in reducing or mitigating the risks
associated with erroneous payments, fraud, waste or abuse. Since PBGC plans to replace
the current performance accounting system OIG suggests management consider the
observations we outlined below, when implementing the new PA system.

Documentation of A/P Procedures

        OIG identified inadequate, missing, or obsolete documented procedures used to
complete payment processing to either identify the A/P process or describe who is
responsible for performing the process. OIG’s review of PBGC’s procedural manuals
indicated that some areas of the A/P process did not have any procedures, while other
areas either had outdated procedures, or procedures that were not fully documented. For
example, OIG was given an outdated procedural manual, that management subsequently
replaced with another version that was more up-to-date, but was still outdated.

        OIG further found that documentation for the data dictionary used to identify the
types and use of data for the A/P process, were incomplete or unavailable. This
document is an important tool that provides a detailed description of the data that is
stored in the database and is acceptable for use in normal processing. In addition, based
on the support documentation we were provided, OIG could not determine the definition
and use of data elements in the PA database. We suggest that PBGC create a data
dictionary for current accounts payable data use and the data dictionary be required for
the new PA system.

         Furthermore, OIG discovered that PBGC did not have a clear and consistent audit
trail for the A/P process. For example, the COTR did not have a consistent process to
communicate with GAB on how to allocate payments among the different suffix codes
within single obligations. OIG determined that though it appears vendors were paid the
correct amounts, we had difficulty tracing the vendor invoice amounts to the general
ledger. Therefore, OIG suggest that GAB develop and implement a method that clearly
allocates obligation payments that are easily traceable to invoices.

       Lastly, OIG suggest that documentation for the A/P process should be revised and
periodically reviewed as steps or procedures change. This should include all procedures
                                            3                                   2005-15/23189
PENSION BENEFIT GUARANTY CORPORATION                           OFFICE OF INSPECTOR GENERAL


for supporting the A/P process such as oversight and accountability. OIG believes if this
is done it could assist PBGC with identifying areas where improvements can be made in
designing the new PA system.

Payment Certification Process Efficiency

        OIG observed the A/P payment process and noted that once the invoice package
is processed there were 30 additional steps that had to be completed before payment is
made. OIG reviewed the checklist that identified 24 of the 30 steps in the payment
certification process that must be completed in a specified order. We found that the
certifier must enter “like” data into the system multiple times. If an error occurs in any
steps, the certifier must start the process over, beginning at step 2. A GAB manager must
then complete 6 additional steps in the final authorization process. These steps involve
another review, payment authorization, releasing the payment from the Department of
Treasury, and confirming that the payment was made.

      Thus, OIG determined that the steps in the payment certification process appear to
be cumbersome. Control of this process is extremely important and OIG believes
improved efficiency in the process will also enhance and improve controls. Therefore,
we suggest that PBGC review how the efficiency of the payment process can be
improved when designing the new PA system.

OTHER MATTERS

Time/Date Stamp Machine

        OIG’s evaluation revealed a control weakness in the time/date machine, which
staff uses to verify when invoices are received. The time/date machine is used to
establish PBGC’s time frame for compliance with the Prompt Payment Act. By law
Federal agencies have 30 days to pay valid vendor invoices. If vendors are not paid in 30
days, agency may incur interest penalties. Throughout our review OIG observed that the
key controlling the time/date machine was left in the machine at all times. Hence, lax
controls increase internal control risks. OIG did not find any instance where the time and
date stamp was inappropriately applied. However, having the key in the machine gives
personnel an opportunity to manipulate the time and date invoices are received.

        OIG brought this situation to management’s attention and the problem was
rectified immediately. Management removed the key from the machine and informed
personnel that management would retain control of the key.

Timely Updated COTR List

       A newly appointed COTR authorized invoices for payment late, because GAB did
not update the COTR list in a timely manner. As a result, though the aggregate amount
was minimal, PBGC paid unnecessary interest charges. OIG brought this situation to
management’s attention and corrective action was taken immediately. Appropriate staff
is now notified immediately when a new COTR is appointed.

                                            4                                   2005-15/23189
